V '

No.

IN THE
SUPREME COURT OF THE UNITED STATES
DON MASHAK - Petitioner
VS.
COMMISSIONER OF INTERNAL REVENUE
Respondent
MOTION FOR WRIT OF CERTIORARI TO US SUPREME COURT
FROM UNITED STATES COURT OF APPEALS FOR THE EIGHT CIRCUIT

Case No. 19-1429
To: Clerk of Courts, Supreme Court of the United States, 1 First Street NE, Washington, D. C. 20543-0001; Commissioner
of Internal Revenue via Beth A. Nunnink 30 E 7th Street #1130 St. Paul, MN 55101
PROOF OF SERVICE
I, Don Mashak, do swear or declare that on this date, June 15,2020, as required by Supreme Court Rule 29,1
have served the enclosed MOTION FOR WRIT OF CERTIORARI TO US SUPREME COURT with the related
exhibits and Notice of Appeal on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with US Priority postage prepaid,
The names and addresses of those served are as follows:
Clerk, Supreme Court of the United States, Washington, D. C. 20543; Respondent/Defendant, Commissioner
of Internal Revenue via Beth A. Nunnink 30 E 7th Street #1130 St. Paul, MN 55101.
I have only sent one copy of each document as directed by the Courts COVID-19 Temporary Rules
I did not send a copy of Appendix XX, Illiberal Reformers: Race, Eugenics and American Economics in the
Progressive Era” 2016 by Thomas Leonard to Respondent for 2 reasons. 1) I sent them a copy of the book in
prior pleadings in this matter. There has been a huge run on this book since I began referencing it on the
Internet. It is sold out in the Twin Cities area and I can’t get a copy until after the deadline. If Respondent feels
they need another copy of said book, they have but to ask and I will send another to them.
44 I 40

The Notice of Appeal only, was served upon the US, District Court Minnesota, 316 N Robert Street #100, St.
Paul Minnesota 55101-1460 and US Court of Appeals in the 8th Circuit, 111 South 10th Street, St. Louis, MO
63102 (314) 244-2400; by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with US Priority postage prepaid.
I declare under penalty of perjurytljaHfie foregomg is true and coj
Executed on

,20
ashak, Petitioner/Plaintiff
In Propia Persona, and as a citizen of the
organic United States of America

45 | 40

